<html>
<title> - THE TRAFFICKING IN PERSONS REPORT 2011: TRUTH, TRENDS, AND TIER RANKINGS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





    THE TRAFFICKING IN PERSONS REPORT 2011: TRUTH, TRENDS, AND TIER 
                                RANKINGS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 27, 2011

                               __________

                           Serial No. 112-106

                               __________

        Printed for the use of the Committee on Foreign Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




 Available via the World Wide Web: http://www.foreignaffairs.house.gov/
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
70-951PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TOM MARINO, Pennsylvania             KAREN BASS, California
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
ROBERT TURNER, New York



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Luis CdeBaca, Ambassador-at-Large, Office to 
  Monitor and Combat Trafficking in Persons, U.S. Department of 
  State..........................................................     5
The Honorable Robert O. Blake, Assistant Secretary of State, 
  Bureau of South and Central Asian Affairs, U.S. Department of 
  State..........................................................    14
Mr. Joseph Y. Yun, Principal Deputy Assistant Secretary of State, 
  Bureau of East Asian and Pacific Affairs, U.S. Department of 
  State..........................................................    22

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Luis CdeBaca: Prepared statement...................     8
The Honorable Robert O. Blake: Prepared statement................    16
Mr. Joseph Y. Yun: Prepared statement............................    24

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................    60
The Honorable Ann Marie Buerkle, a Representative in Congress 
  from the State of New York: Prepared statement.................    61
Questions submitted for the record by the Honorable Christopher 
  H. Smith, a Representative in Congress from the State of New 
  Jersey, and chairman, Subcommittee on Africa, Global Health, 
  and Human Rights...............................................    62
Questions submitted for the record by the Honorable Ann Marie 
  Buerkle, a Representative in Congress from the State of New 
  York...........................................................    65

 
    THE TRAFFICKING IN PERSONS REPORT 2011: TRUTH, TRENDS, AND TIER 
                                RANKINGS

                              ----------                              


                       THURSDAY, OCTOBER 27, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:08 p.m., in 
room 2200, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. And good 
afternoon to everybody. Welcome to this hearing to examine the 
State Department's 2011 Trafficking in Persons Report. This 
annual report to Congress was first mandated by legislation 
that I sponsored, known as the Trafficking Victims Protection 
Act of 2000.
    In 1998--and I know Ambassador CdeBaca is very well aware 
of this--when I first introduced the bill, the legislation was 
met with a wall of skepticism and opposition, although we did 
have some friends like the Ambassador. People both inside of 
government and out thought the issue of human trafficking was 
merely a solution in search of a problem. For most people at 
that time, the term ``trafficking'' applied almost exclusively 
to illegal drugs or weapons. Reports of vulnerable persons, 
especially women and children, being reduced to commodities for 
sale were often met with surprise, incredulity, or 
indifference.
    One major objection to the bill, especially from the 
Clinton administration, was the naming and ranking of countries 
based on compliance with the establishment of commonsense 
minimum standards, clearly articulated prevention, protection, 
and prosecution benchmarks, enforced by sanctions and penalties 
against egregious violators.
    Fortunately, reality won out over ignorance. Although it 
took 2 years to overcome opponents and muster the votes for 
passage, the Trafficking Victims Protection Act was finally 
signed into law with strong bipartisan support. This support 
from both sides of the aisle has continued through subsequent 
reauthorizations, and has been essential in the ongoing 
successes by the U.S. Government in combating modern-day 
slavery both at home and abroad.
    However, the battle is far from over. According to the 
State Department's Office to Monitor and Combat Human 
Trafficking, created by the TVPA, more than 12 million people 
worldwide are trafficking victims. Other estimates put the 
number of victims as high as 27 million.
    Today we know that human trafficking is the third most 
lucrative criminal activity in the world. According to the 
International Labor Organization, human traffickers make 
profits in excess of $31 billion a year.
    We are fortunate to have with us today three distinguished 
State Department witnesses to examine both the substance and 
the diplomatic activity that is behind the Trafficking in 
Persons Report. The report, which is written by the TIP office, 
headed by Ambassador Lou CdeBaca, summarizes the rankings and 
performance of each country and provides detailed 
recommendations as to how each country can improve its efforts.
    But more than a source of comprehensive, concise knowledge 
against human trafficking around the world, the TIP report has 
been an incredibly effective diplomatic tool. The report has 
been a catalyst for improvement, often dramatic improvements, 
in efforts of governments to address human trafficking within 
their borders and regions.
    With a combination of encouragement, persuasion, and 
sustained pressure via sanctions or the threat of sanctions 
imposed by the U.S., countries around the world have created or 
amended over 120 laws to combat human trafficking, and, in the 
past 3 years alone, an estimated 113,000 victims have been 
identified and assisted worldwide. Individuals within each 
country can use the report to assess their government's 
commitment and to lobby their government to take specific 
measures.
    The G/TIP Office also coordinates technical assistance and 
aid for many of the countries wishing to improve their anti-
trafficking response. The result has been a worldwide anti-
trafficking surge, largely dependent on the credibility, the 
accuracy, and faithful implementation of the report, including 
the tier framework.
    This afternoon, we will turn our attention to ensuring that 
the report retains these essential attributes, and to assess 
whether or not it is fulfilling its purpose.
    In 2003, Congress added a special Watch List to the tier 
rankings to allow countries an opportunity to address serious 
shortcomings in their anti-trafficking efforts before being 
placed in Tier III and subject to sanctions. When it became 
apparent that this Tier II Watch List was becoming a permanent 
parking lot for some countries, Congress added a requirement to 
the 2008 reauthorization that the President either downgrade or 
upgrade any country that had been on Tier II Watch List for 2 
consecutive years.
    Obviously, the direction in which the country is moved is 
based on whether requisite measures were taken to meet the 
minimum standards. The President can waive the requirements to 
move a country off of the Tier II Watch List for up to 2 years 
if the country has a plan to bring itself into compliance with 
minimum standards, and designates sufficient resources to carry 
it out. But this waiver should only be applied in the most 
extreme cases, as countries have had since 2009 to undertake 
this effort.
    Consequently, it is with concern that I note the President 
has determined 12 countries need yet another year on Tier II 
Watch Lists. Some of these countries, notably China and Russia, 
have been on the Watch List for 7 and 8 years respectively. 
Uzbekistan has been on the list for 4 years.
    I look forward to hearing, discussing with our witnesses 
today, exactly why the administration is convinced these 
countries need yet another year to get their acts together. I 
also look forward to a serious discussion about the application 
of sanctions.
    The report shows that of the 23 countries on Tier III, the 
full sanctions envisioned by the TVPA will be applied to only 
three countries: Eritrea, Madagascar, and North Korea. Partial 
sanctions will be imposed on seven countries, and 13 countries 
will have no trafficking sanctions imposed whatsoever.
    Some may argue that being on Tier III is punishment enough, 
but Congress envisioned tangible repercussions for countries on 
Tier III. Those who work on the front lines of human 
trafficking know all too well that a law is useless and 
diminished at the very least, unless faithfully implemented.
    I look forward to discussing with our distinguished 
witnesses today the accuracy of the tier rankings and the 
importance of substantial follow-up actions.
    I would like to now yield to my friend and colleague Mr. 
Payne for any opening comments he may have.
    Mr. Payne. Thank you. Let me start by commending 
Congressman Smith for calling this important hearing on the 
2011 Trafficking in Persons Report.
    I want to thank our witnesses for agreeing to testify 
before us today. On June 27, the State Department issued its 
11th annual Report on Human Trafficking in Persons, TIP Report, 
as mandated by the Trafficking Victims Protection Act. Overall, 
the 2011 report presents a sobering view of the state of U.S. 
and international campaigns against human trafficking. It 
describes the most common severe forms of human trafficking, 
and identifies key emerging issues and trends.
    Unfortunately, global progress has been mixed. For example, 
in the past 2 years the average number of prosecutions of human 
trafficking offenders has increased. However, if we look back 
further we see that the total number of prosecutions have 
declined.
    I look forward to hearing from our witnesses today about 
ways the international community can help developing countries 
strengthen their judicial systems to better respond to this and 
other criminal justice issues.
    The report also reveals that we are failing to adequately 
target each subset of TIP, particularly forced labor, which is 
more than a common crime; it actually occurs much more than sex 
trafficking, but only represents 10 percent of all 
prosecutions.
    I am looking forward to hearing the panel's thoughts on how 
to better address this challenge of trafficking in the 
workforce. I also hope the witnesses can highlight the unique 
challenges facing many African and conflict-stricken countries 
in addressing the issue of human trafficking.
    According to the report, only two African nations, Nigeria 
and Mauritius, are fully complying with the minimum standards 
for combating human trafficking, therefore qualifying them as 
Tier I. Ten African countries fall within Tier III, which makes 
them subject to aid restrictions. In Africa, these potential 
aid restrictions are cause for concern. Many countries on the 
continent have been burdened by debilitating conflicts and 
strife. Africa's conflicts have displaced citizens, traumatized 
local communities, and it is often children who are 
particularly vulnerable to exploitation.
    In these conflict areas, where government control is often 
limited, armed groups may abduct women and children for sexual 
slavery, and also often recruit children for their ranks.
    Limited income-earning opportunities in conflict zones also 
contribute to these problems. Exploitation thrives under these 
conditions. Overburdened governments, poor judicial systems, 
and widespread poverty prevent adequate response to human 
trafficking cases in many of the countries that I am referring 
to. Yet some African nations are making progress on this front.
    The U.N. Secretary General stated in his most recent global 
report on children and armed conflict that, despite several 
challenges, considerable progress was made by the Sudanese 
People's Liberation Army, the SPLA, in implementing a plan to 
remove child soldiers from its ranks. According to the 2011 
report, Chad reportedly ended all child conscription into its 
national army, and continued to engage in efforts to demobilize 
remaining child soldiers from rebel forces.
    Earlier this month, President Obama certified that Chad had 
taken necessary steps to allow for its reinstatement of barred 
assistance. While I agree that the United States and the 
international community must hold states responsible for 
implementing robust anti-trafficking initiatives, I am 
concerned about the impact that withholding aid can have on 
innocent civilians.
    It is important that in our effort to end human trafficking 
and persuade nations to fully engage in the global cause, we do 
not inadvertently harm those we intend to protect and help. I 
commend President Obama for his thoughtful understanding of 
this very complex issue and for granting waivers where 
appropriate.
    As we move forward with our discussion today, let us not 
forget the conditions that allow the horrific crimes of human 
trafficking to exist. We should focus on ways to ensure that 
our aid programs help strengthen the capacity of developing 
countries to adequately protect their civilians and citizens.
    Thank you again to our witnesses, and I look forward to 
hearing your testimony. I yield back the balance of my time.
    Mr. Smith. Thank you very much, Ranking Member.
    We are joined by Mr. Turner. Thank you for being here.
    Mr. Turner. Thank you.
    Mr. Smith. And I will put all of the extensive resumes of 
our distinguished witnesses in the record, and just very 
quickly summarize.
    First, introducing Ambassador Luis CdeBaca, who is no 
stranger to this subcommittee, who was appointed in 2009 as the 
Director of the State Department's Office to Monitor and Combat 
Trafficking in Persons, which assesses global trends, provides 
training and technical assistance, and advocates for an end to 
modern-day slavery. Ambassador CdeBaca formerly served as chief 
counsel to the House Committee on the Judiciary, where his 
portfolio included modern slavery issues among many other 
things. He also served as a Federal prosecutor with the 
Department of Justice, where he convicted dozens of abusive 
pimps and employers, and helped to liberate hundreds of victims 
from servitude. A very distinguished record.
    We will then hear from Ambassador Robert Blake, who 
currently serves as the Assistant Secretary of State in the 
Bureau of South and Central Asian Affairs, a position he has 
held since May 2009. He entered the Foreign Service in 1985, 
and served at the American Embassies in Tunisia, Algeria, 
Nigeria, and Egypt. He served as the deputy chief of mission at 
the U.S. Mission in New Delhi, India, from 2003 to 2006. And 
Ambassador Blake was our Ambassador to Sri Lanka and Maldives 
from 2006 to 2009. He also held a number of positions at the 
Department right here in Washington.
    Then we will hear from Mr. Joseph Yun, who is currently 
Principal Deputy Assistant Secretary in the Bureau of East 
Asian and Pacific Affairs, a position he has held since August 
2010. In this role, he is responsible for relations with 
Southeast Asia and ASEAN affairs. He joined the Foreign Service 
in 1985, and has served in numerous positions abroad, including 
in South Korea, Thailand, France, Indonesia, and Hong Kong.
    Ambassador CdeBaca, the floor is yours.

 STATEMENT OF THE HONORABLE LUIS CDEBACA, AMBASSADOR-AT-LARGE, 
   OFFICE TO MONITOR AND COMBAT TRAFFICKING IN PERSONS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador CdeBaca. Thank you, Mr. Chairman, Congressman 
Payne, Congressman Turner. Thank you to the subcommittee for 
the opportunity to testify today. I have a more fulsome 
statement that I would offer for the record. But before we 
start, I would like to take a step back, if I may, to recognize 
what you and your cosponsors of the original Trafficking 
Victims Protection Act achieved in bringing that initial 
skepticism that you perhaps mentioned to consensus.
    Eleven years ago this afternoon in fact, on a similarly 
rainy day in October, President Clinton recorded his radio 
address to be broadcast on the morning of October 28, 2000, the 
day that he signed that groundbreaking legislation into law to 
fight what the President described that day as slavery, pure 
and simple. As President Clinton pointed out, the TVPA was 
groundbreaking in providing new tools both here at home and 
abroad in increasing our assistance to other countries to help 
them detect and punish this pernicious practice.
    I would like to simply quote President Clinton, because his 
words that evening are as applicable now as they were then. He 
said, and I quote,

        ``I worked hard for these provisions. They build on 
        what we have been doing at home and abroad to address 
        this problem. We see in the success of this landmark 
        legislation once again that there is no real secret to 
        getting things done in Washington. When we put progress 
        over partisanship, we get results. When we work 
        together, we get results. Working hard, working 
        together through three Presidencies and various changes 
        in the Congress, together committed to ending modern 
        slavery.''

    As you continue to deliberate this year's reauthorization 
of the Trafficking Victims Protection Act, hearings such as 
this one are helpful opportunities to discuss the global fight. 
And we are dedicated to working together with you to get those 
types of results that President Clinton mentioned.
    This week is also the 10th anniversary of the establishment 
of the Trafficking in Persons Office at the State Department. 
On October 22, 2001, the Office opened for business and has 
never flagged in its resolve. A decade of leadership by my 
predecessors, Ambassadors Nancy Ely-Raphel, John Miller, Mark 
Lagon, but the fight is really the result of the expertise of 
the G/TIP career staff, the civil servants, Foreign Service, 
and contractors and their partners at Main State and at post. 
Two of those experts, Amy O'Neill Richard and Carla Menares 
Bury, have been in the Office since the beginning. And those 
women are globally recognized leaders in the modern 
abolitionist struggle, and I would like to note that we owe 
them all a debt of gratitude for their decade in service in 
this fight against modern slavery.
    The most visible part of our work is the annual Trafficking 
in Persons Report. And thorough and honest assessments are the 
benchmark of the TIP report. We take into account information 
from civil society groups, foreign governments, and our own 
reporting officers at post who conduct on-the-ground research 
throughout the year. The review process involves numerous State 
Department offices so that the final product represents a 
Department-wide consensus on how well various governments are 
doing to handle this problem.
    Accurate reporting is essential to the effectiveness of the 
Trafficking in Persons Report as a diplomatic tool. And indeed, 
governments often cite it as a factor prompting stronger action 
in response to modern slavery. Sometimes those conversations 
happen in public, more often in private, and sometimes a 
government that criticizes the report, and perhaps even 
mobilizes others in the regions or around the world against it, 
quietly nonetheless takes steps to address the standards that 
were set forth by Congress.
    Regardless of the public response, we are going to work 
hard with our counterparts to get results, just as was done in 
the Clinton administration, just as was done in the Bush 
administration. What the report tells us is that no country, 
including the United States, is immune to this scourge, and 
that no government, including the United States, is doing a 
perfect job in combating it.
    The two regions that we address today, East Asia and the 
Pacific, and South and Central Asia, are hit particularly hard 
by this crime. We always say that the fight against modern 
slavery takes political will, and not just on the part of 
governments overseas. Assistant Secretaries Bob Blake and Kurt 
Campbell are showing that political will both individually and 
within their chains of command. As a result, we have seen a 
real institutionalizing of the anti-trafficking fight in these 
regions, and a coming together around this sense of mission. 
That means year-round engagement--not just the preparation of 
the annual report, and for that I am personally grateful for 
the leadership of Assistant Secretaries Campbell and Blake--
year-round engagement, partnership, and hard work, necessary to 
move past this last decade of development in which laws and 
structures have slowly come on line, and to move into what 
Secretary Clinton calls a decade of delivery.
    Because the number of successful prosecutions seems to have 
leveled off a bit, because services for survivors continue to 
be inadequate, and victim identification remains a challenge, 
because structures and results are not the same thing. The 
difference between the passage of a law and the effective 
implementation of that law is political will. The reality is 
that there are places where that political will is weak or 
nonexistent, and in those places victims are most at risk.
    As the report shows, some governments merely go through the 
motions when it comes to fighting modern slavery, and some 
governments, the Tier III countries, typically, do not do 
anything at all. Every day, nongovernmental actors around the 
world work to make up for that, despite the fact that these 
governments are doing little or nothing. We support such groups 
through our international programs and foreign assistance 
funds. We know that it will never be possible to give every 
organization the help that they want, but even the current 
funding levels only average out to a little more than $0.72 per 
victim per year, given the 27 million estimate worldwide. And 
in many countries, if that little bit of American funding that 
we were able to give were to disappear, those programs would 
simply cease to exist. There would be no place for victims and 
survivors to go.
    It has been 149 years and 1 month since President Lincoln 
made the promise of emancipation. It was 4 months ago that we 
released the TIP report and that Secretary Clinton called for a 
decade of delivery to make good on President Lincoln's promise 
around the world.
    If the U.S. Government is not able to stand with motivated 
governments and the nongovernmentals that make a difference on 
the ground providing victim services, training prosecutors, and 
police officers, the decade of delivery is already in danger. 
If the anti-trafficking movement loses steam in Washington and 
the halls of Congress, we could lose that fight everywhere else 
as well.
    We cannot try to balance the budget on the backs of 
trafficking victims. And if we do so, or try to do so with cuts 
to an already tiny amount of money, we put at risk all of the 
progress made over the last decade. Human trafficking is a 
threat to our country and an offense to our most important 
values. But more importantly, as Secretary Clinton has said, 
fighting slavery is part of who we are as a Nation. For 149 
years we have not only had a responsibility to act against this 
crime, we have pledged ourselves to that responsibility. We 
must not and will not shirk from that task. Thank you.
    Mr. Smith. Thank you very much, Mr. Ambassador.
    [The prepared statement of Mr. CdeBaca follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
                              ----------                              

    Mr. Smith. Ambassador Blake.

STATEMENT OF THE HONORABLE ROBERT O. BLAKE, ASSISTANT SECRETARY 
   OF STATE, BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador Blake. Mr. Chairman, Representative Payne, 
Representative Turner, I welcome the opportunity to speak with 
you today regarding trafficking in South and Central Asia. I am 
honored to do so in the company of my colleagues, Ambassador 
CdeBaca and Joe Yun. I have a longer statement that I will 
submit for the record.
    Mr. Smith. Without objection, that will be made part of the 
record.
    Ambassador Blake. Mr. Chairman, first of all let me say how 
much I appreciate your leadership, the work of this 
subcommittee, and the focus that you bring to the issue of 
trafficking in persons. I have made it a personal priority to 
address trafficking in persons in the SCA region in close 
partnership with Ambassador CdeBaca. I have done so through 
direct advocacy with governments, but also by visiting with the 
many fine NGOs on the ground doing good work to combat 
trafficking, and frequently recording short video interviews 
with them that my staff posts on YouTube to publicize their 
work and the scope of the challenges that they are dealing 
with.
    Mr. Chairman, I am proud to say that our engagement has 
produced dividends and progress, but significant challenges 
still remain. The Department upgraded four SCA countries this 
year from Tier II Watch List to Tier II, India, Sri Lanka, 
Kazakhstan, and Tajikistan. Three remain on the Watch List, but 
we are making progress in all three, Bangladesh, Maldives, and 
Uzbekistan. And only one country is on Tier III, Turkmenistan.
    I would like to briefly touch on the situation in some of 
the key countries where I have been personally engaged. First, 
India. Mr. Chairman, I know you share our interest in seeing 
continued progress in India on anti-trafficking efforts. The 
Department's upgrade of India to Tier II this year was based on 
the government's increased efforts to address the trafficking 
problem, particularly bonded labor. Specifically, the 
government increased law enforcement efforts through the 
establishment of over 80 anti-human trafficking units. It 
ratified the U.N. TIP protocol. It achieved landmark 
convictions against bonded labor traffickers, with punishments 
of significant prison sentences, and increased rescue and 
rehabilitation efforts of thousands of trafficking victims in 
many parts of India. This good work continues at both the state 
and Federal levels.
    Tajikistan is another country that has made commendable 
progress against trafficking, and Secretary Clinton noted that 
on her recent trip there last weekend. In 2011, Tajikistan was 
upgraded to Tier II for addressing the use of forced labor in 
its annual cotton harvest through efforts such as accrediting 
and assisting NGOs to monitor the harvest. They also prosecuted 
and convicted the first trafficking offenders under their new 
anti-trafficking provision.
    Kazakhstan also was elevated to Tier II this year. The 
Kazakh Government increased law enforcement efforts against 
human trafficking, it passed a law strengthening penalties for 
convicted child sex trafficking offenders, and the Ministry of 
Internal Affairs has drafted a law that allows trafficking 
victims to have a legal advocate that expands the scope of 
trafficking-related crimes and increases legal protections for 
minors subject to forced labors.
    Mr. Chairman, you asked about Uzbekistan. It presents a 
mixed picture. The government has made good progress in 
combating sex trafficking, but has been slow to address the use 
of forced labor, particularly in the annual cotton harvest. In 
March 2011, the Government of Uzbekistan created an interagency 
working group tasked with ensuring compliance with all 13 ILO 
conventions to which Uzbekistan is a party. Our Embassy in 
Tashkent will be monitoring the Government of Uzbekistan's 
actions to uphold these commitments, and I will continue to 
engage the government to make progress on this important 
priority.
    Mr. Chairman, the trafficking report has been an impetus 
for this change in all of our region, but it is only one of the 
tools that we have at our disposal to influence the anti-
trafficking efforts of other countries.
    Reports from international NGOs have sometimes been 
instrumental in informing and compelling action on TIP. My 
Bureau and Ambassador CdeBaca's team greatly value such input, 
and we have tried hard to foster a cooperative relationship 
with these institutions. We influence them and they influence 
us by information sharing to make sure that our efforts are 
complementary and that we make the most impact on the ground. 
Governments remain extremely interested to know where they will 
be ranked in the report when it comes out in June.
    But I think that the work that we do to consistently engage 
and influence people at every level of society is equally 
significant. For example, the exchange programs and workshops 
that we sponsor to train government officials in implementation 
are critical to realizing the potential of the new laws being 
passed. The training programs with police officers or border 
guards to sensitize them about potential trafficking in persons 
victims are also vital. So I want to assure you that we value 
the resources that we are entrusted with by Congress, and we 
work very closely with Ambassador CdeBaca and his staff to 
implement the programs to make a positive and lasting impact.
    In summary, Mr. Chairman, the SCA region is moving closer 
to being compliant with internationally recognized anti-TIP 
standards, but there is much more work to be done. This will 
continue to be a personal priority for me and a priority for my 
Bureau. So again, I thank you for this opportunity to address 
this subcommittee, and I look forward to your questions.
    Mr. Smith. Ambassador Blake, thank you very much.
    [The prepared statement of Mr. Blake follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Yun.

  STATEMENT OF MR. JOSEPH Y. YUN, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY OF STATE, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, 
                    U.S. DEPARTMENT OF STATE

    Mr. Yun. Mr. Chairman, Ranking Member Payne, Representative 
Turner, thank you for the opportunity to appear before you 
today to testify on trafficking in persons in East Asia and the 
Pacific region. I have submitted a statement for the record.
    With your permission, I would like to make a few summary 
remarks. First of all, regrets to convey from Assistant 
Secretary Campbell. He wanted to be here, but he had to be 
traveling at the last minute. So I think in fact as we are 
speaking, he is landing in Dulles.
    Human trafficking and modern slavery reaches into every 
corner of the globe, but perhaps nowhere more so than in East 
Asia and the Pacific. According to the International Labor 
Organization, the incidence of forced labor and sex trafficking 
is higher in the Asia-Pacific region than anywhere else in the 
world. And according to the United Nations Office on Drugs and 
Crimes, victims from Asia are trafficked to the widest range of 
destinations around the globe.
    In addition to being trafficked overseas, many victims are 
trafficked within their own countries. In fact, the UNODC 
reports that most trafficking is national, not international, 
and is carried out by traffickers whose nationality is the same 
as their victims, and within national borders.
    While human trafficking remains widespread and serious, we 
do believe that TVPA, our TIP report, and its associated 
activities have been effective in fighting trafficking in 
persons in East Asia and the Pacific.
    There are several success stories I would like to share 
with you. Taiwan is one example of how information in the TIP 
report has led to real reform in many aspects of fighting TIP, 
including implementation of stronger anti-trafficking laws, 
better protection for victims, and increased prosecutions. In 
2006, Taiwan was ranked in TIP report as Tier II Watch List, 
was upgraded to Tier II in 2007, and in 2010 was upgraded again 
to Tier I, where it remained this year.
    The Philippines also has potential to serve as a model in 
the region for its recent efforts to combat TIP. After 2 
consecutive years as Tier II Watch List, and facing an 
automatic downgrade, the Philippines was upgraded to Tier II in 
2011. The number of prosecutions of traffickers in the 
Philippines increased greatly in the last reporting cycle. And 
the government has increased the resources it devotes to combat 
trafficking, and has begun to identify and punish corrupt 
officials linked to trafficking. The government has 
acknowledged these efforts were linked to the threat of a 
downgrade to Tier III in the TIP report.
    Singapore is another example of a country in our region 
that has potential, moving up from Tier II Watch List to Tier 
II in 2011. Singapore has shown a markedly increased awareness 
of TIP issues in the last year, and the government has formed 
an interagency task force to address the issue. In 2011, 
Singapore hosted a workshop for the ASEAN region on criminal 
justice responses to trafficking in persons, which was attended 
by Ambassador CdeBaca as well as other members of my Bureau. 
And in April 2011, 6 members of Singapore's 20-person 
interagency task force on TIP traveled to DC to meet myself, 
Assistant Secretary Campbell, and my colleagues in Ambassador 
CdeBaca's office. I will stress that it is not the report alone 
that results in progress, but also the enormous amount of hours 
spent in country by staff from our embassies and consulates 
abroad, who engage year-round with the whole of government. Our 
advocacy in Washington with those countries' ambassadors and 
embassy teams has also made a difference.
    Mr. Chairman, we are only too well aware the problem 
remains. We have worked very closely with Ambassador CdeBaca, 
who has made a number of trips over the last few months to our 
region, and we remain committed to working with G/TIP office as 
well as other international organizations fighting human 
trafficking.
    Thank you, Mr. Chairman. I look forward to answering any 
questions you might have.
    Mr. Smith. Mr. Yun, thank you very much for your testimony.
    [The prepared statement of Mr. Yun follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Let me first begin with a general question. I 
guess, Ambassador CdeBaca, you might be the one that might want 
to answer this. What diplomatic efforts did the Department make 
or undertake to ensure that countries knew that they would not 
remain on the Watch List for 2 more years, as per the 
trafficking reauthorization of 2008? And what was the reaction? 
I mean, were each of those that were currently on watch 
contacted and fully apprised of their potential downgrading?
    Ambassador CdeBaca. Indeed. We did a number of steps, both 
internally within the Department through all docs and messages 
out to the field, but then also with that as a tasker for that 
direct type of engagement. And we saw on the part of a number 
of countries a recognition that this was kind of long overdue, 
that countries had gotten perhaps a little comfortable on 
there.
    We saw a recognition on some other countries, especially 
those such as Senegal or the Philippines or others who are MCC 
countries, a recognition of what the prospect of a Tier III 
downgrade might mean not just reputationally, but as far as 
sanctions, and as far as some of the other assistance and aid 
and work in the international monetary fora might have on those 
countries. It was a bit of a wakeup call for some of our 
partners. And we think that we have seen, as a result of the 
Watch List designation, some real movement. There were a good 
percentage of the Tier II Watch List countries moved up to Tier 
II on the merits.
    The waiver issue was never even something that had to be 
faced because of the work that they had done. And this was not 
1-year work, this was work that they had undertaken across 
those 2 years. We felt that it was important to kick it in 
after 2 years because of the notion that almost an ex post 
facto type of situation, even though this isn't a domestic 
criminal law, but the notion that countries should have fair 
warning that 2 years on the Watch List would have that result. 
We also made it very clear what countries would need to do to 
get waivers. It wasn't a choice. It wasn't saying, you know, 
you should choose the lesser of two evils, but with the 
recognition that not every country would necessarily be able to 
get up to Tier II on the merits, as you and others had 
recognized in putting the waiver provision in. So there was 
certainly increased diplomacy that was done at the bilateral 
level by our ambassadors, by me at G/TIP, but also specific 
engagement on the part of then-Under Secretary for Political 
Affairs Burns, now Deputy Burns, and others, who looked at 
those 37 countries as countries that needed very specific 
interventions.
    And we saw that from the willingness of Deputy Steinberg, 
the willingness of Under Secretary Burns to have those 
conversations was very important, we thought, in having these 
countries move up and off the Watch List.
    Mr. Smith. Thank you. Let me ask you with regards to South 
Korea, you might recall that we initiated an effort back in 
early 2002 to try to get a zero-tolerance policy and to do an 
investigation among our military to see whether or not there 
was complicity with regards to our deployments in South Korea, 
and certainly in the former Yugoslavia. And the IG's report 
from the Department of Defense was very, very damning. And it 
did lead to Bush's zero-tolerance policy.
    I and others have raised repeatedly the issue of the juicy 
bars in South Korea. I am just wondering why that seems to have 
been left out of the narrative for this year's report. Have 
they disappeared? Has the issue largely been mitigated? Or are 
those still a problem? And as you recall, many of the women who 
were being exploited there were Filipino women. And I know the 
Filipino Government took some very aggressive action. I wonder 
if that has been sustained.
    Mr. Yun. I think this issue, as you know, has been an 
ongoing concern. And USFK in South Korea has made zero-
tolerance policy very effective. And my recollection is that I 
don't think we can say juicy bars have disappeared 100 percent, 
but the incidence of abuse that went on is much way down.
    If you like, Mr. Chairman, we can get more background on 
the statistics or data we have on that.
    Mr. Smith. I appreciate that, because it does seem to 
reemerge. I know that Stars and Stripes has done some very fine 
reporting on that, as have others. But as soon as you think you 
have it in hand, all of a sudden a new spate of this kind of 
exploitation emerges. Did you want to touch on that?
    Ambassador CdeBaca. Mr. Smith, I was in South Korea a 
couple of months ago, and in fact went to USFK, and we went 
through some of these issues directly. One of the things that I 
was struck with personally was the juxtaposition of those 
images that we are all familiar with from the undercover 
reporting that was done by some U.S. reporters of not just our 
servicemen in active brothels, active strip clubs, not even the 
euphemism of the juicy bar, but then also the shore patrol type 
of folks, who were supposed to be there making sure that there 
wasn't anything untoward going on, telling the undercover 
reporters how easy it was to go with prostitutes.
    Those same street corners, those same neighborhoods that 
were in that undercover reporting are now nonsexually-related 
businesses, partially because of the zero-tolerance policy, 
partially because of the fact there are more families being 
posted to that area of Korea, and not as many young men by 
themselves. I think all of it together paints a picture of 
towns where there used to be nothing but red-light districts, 
and now there are places where you can take your kids and can 
get chicken fingers on the menu. I think that has a big effect.
    And it is something that happens because USFK, because our 
Embassy in Seoul, and all of us are not taking our eyes off the 
ball. But that notion that it can come back if we do take our 
eyes off the ball is well taken.
    Mr. Smith. Thank you. As you know, according to section 110 
of the TVPA, China and any other country can only remain on the 
Watch List if it has a written plan to begin making significant 
efforts to bring itself into compliance with the minimum 
standards, and that the plan, if implemented, would constitute 
making significant efforts, and the country is devoting 
sufficient resources to implement that plan.
    I am wondering with regards to China, what is China's plan? 
If you could elaborate on what it is that they said they are 
willing do. Are they doing it? As you know, and I have raised 
this before, we just had a hearing, as you may know, in this 
committee hearing room just a few weeks ago. We heard from 
survivors, women, including Chai Ling, all of whom have 
suffered the gross exploitation of a forced abortion. And the 
direct consequences of the one-child-per-couple policy has been 
the missing girls. And some estimates put it as high as 100 
million. Nobody knows the exact number. It is generally 
accepted that by 2020, 40 million, and maybe as many as 50 
million, is the newest number we have heard, men will not be 
able to find wives because they have been subjected to a sex 
selection abortion.
    So the magnet for human trafficking is in ascendancy in 
China. And I hope any plan that they have submitted or 
suggested that they will follow pursuant to our not putting 
them on Tier III, which is where they belong in my opinion, you 
know, really will take into account the horrific consequences 
of the missing daughters, the missing girls in China.
    In the report before this one, there was more attention, I 
thought, paid to the component and the contributing actions of 
the one-child-per-couple policy to trafficking. I think we are 
going to see bride selling and, frankly, kidnapping, and 
certainly force, fraud, and coercion used in a variety of ways 
to bring women into China because of this huge gender 
disparity. Of course India has one as well, which is egregious, 
but China's is a direct result of a government policy.
    So I am wondering if that is fully understood, is it being 
conveyed to the Chinese how concerned we are about this 
terrible and cruel experiment called the one-child-per-couple 
policy that has rendered brothers and sisters illegal, but it 
has made sisters scarce? If you could.
    Ambassador CdeBaca. I think I will address, Mr. Smith, the 
waiver issue as far as the plan was concerned. One of the 
things that we saw from the Chinese this last year is that, of 
course, there is the written action plan that they have. But 
perhaps more so, there are a number of other instruments that 
came out in the ranking period which we thought were very 
interesting, and in fact were having an impact in a way that we 
had never seen before from China.
    For instance, there was the guidelines that were issued by 
the Ministry of Public Security and the Supreme People's Court 
on sentencing issues. This is, again, something that we had 
seen in the report over the previous years where we had been 
criticizing the low sentences, a number of guidelines going out 
to the courts saying you need to bring up the sentencing on 
this. The idea of better law enforcement. The commitments made 
for guidelines for shelter staff, for protocols for working on 
trafficking victims on relief and reintegration. And perhaps, 
most importantly, a directive to the field that women who were 
encountered in prostitution should not simply be seen as 
criminals, but instead should be assumed to be victims of 
trafficking at the outset of the investigation; that shifting 
the burden away from the victim, and assuming that they are 
somebody who needs help was a very positive step. It would be a 
positive step no matter what country it was in. But especially 
in the Chinese context, we thought that that was something that 
was worth noting.
    We look forward to working with the Chinese Government over 
the coming months as they look to bring themselves into 
compliance with the Palermo Protocols standards. As you know, 
we have been consistently raising the problem of their 
trafficking definition, which was so focused on child 
abduction, doesn't necessarily track the Palermo Protocol.
    In our conversations with the Chinese Government, it 
appears that their academics and their legal technocrats are 
doing the kind of work that is necessary to start teeing-up 
legislative changes, and also to put together a new plan going 
forward, a new 5-year plan.
    I think Mr. Yun is going to address some of the other 
concerns. But I will certainly say that as far as the family 
issues that you raise, one of the things that I raise when I am 
in China, and will continue to do so, is this concern that the 
population planning policies of the Chinese Government is 
having that contributory effect that you mentioned. And it is 
twice mentioned in the report. We are not backing off on that 
issue.
    Mr. Yun. Mr. Chairman, if I can just expand a little on 
Ambassador CdeBaca's remarks. The administration considers 
China's coercive birth limitation policies a grave violation of 
human rights, and has routinely expressed our opposition to 
those policies both publicly and privately. The White House 
issued a statement on August 23 articulating the 
administration's strong opposition to all aspects of China's 
coercive birth-limitation policies, including forced abortion 
and sterilization. And thus, we at the Department continue to 
monitor developments concerning this very important issue.
    Promoting greater respect for human rights, including 
reproductive rights, is one of our key foreign policy 
objectives in China. And we will continue to urge the Chinese 
Government to treat its people in accordance with established 
international norms. Thank you.
    Mr. Smith. Thank you, Mr. Yun. Two final questions. I will 
yield to my colleagues, and then I have a few additional, if 
you would allow.
    Deborah Cundy, you might recall, Ambassador CdeBaca, 
testified about best practices. We met her, you and I, at a 
conference in Rome. I thought her testimony when she appeared 
here was extraordinary about best practices that her hotel 
chain has undertaken. But there have been many reports that 
indicate that American chain hotels in China as well as in 
Mexico have been the locations of sex trafficking. And namely, 
we are talking about the Hilton hotel chain. And I am wondering 
what you were doing specifically to work with hotel chains, 
including Hilton, to ensure that they are not complicit in 
human trafficking. Are they working with law enforcement, for 
example, to ensure that trafficking laws against complicit 
hotels--I mean, are we taking a harder line on those that are 
part of the problem?
    Ambassador CdeBaca. There are several things that we are 
doing on the hospitality front. First of all, it is in the 
context of the overarching business approach where we, through 
projects such as the slaveryfootprint.org Web site, where 
everyone can go, and after taking a 15- to 20-minute survey on 
what they own and what they buy can get at least a rough idea 
of how many people who are held in modern slavery are impacting 
their lives.
    I took it, and I am ashamed to say that even though I do 
this for a living, and have for a while, that according to the 
economists at Berkeley and the others who did the algorithms 
that support that application, that at a minimum I have got 84 
people held in forced labor around the world who are 
contributing to my lifestyle just on the basis of what I buy, 
what I do, et cetera. And that is, as I said, not only somebody 
who doesn't use commercial sex, but also fights slavery for a 
living. And if that is my slavery footprint, we can only think 
about what people who aren't asking these questions might be.
    A hotel has a slavery footprint as well. And I think that 
we have seen that leadership from the Carlson Company, 
certainly through their properties, Radisson, Country Inn and 
Suites, et cetera, but also we are seeing leadership in some 
other ways from hotels. Marriott made the decision--evidently 
they have a policy that they don't sign onto codes of conduct, 
kind of a general company-wide--so when they looked at it they 
said, you know, what we think that we can best do with our 
properties is not only think about how to have an exploitation-
free hotel environment, but also to harness the power of the 
trafficking victims and the survivors. And so we are happy to 
say that the first projects in the Marriott family, and I think 
Starwood is participating as well, to actually bring 
trafficking survivors into the training programs there, in 
Brazil, in Mexico, in Vietnam--we think that the best victim 
protection is a job, a good job, a safe job. And hotels can be 
the agents of that.
    Hilton, in the wake of those scandals--unfortunately, it 
often takes a scandal to wake up a country or a company as to 
the fact that they need to deal with this in their own supply 
chains--in the wake of that scandal has now signed onto the 
code of conduct for the travel and tourism industry. And we 
made it very clear to Hilton that one of the reasons why we 
selected the Hilton in downtown Miami for our recent Western 
Hemispheric Reporting Officers Conference, when we had a choice 
of a number of properties to host that in, was in recognition 
of the fact that they had done so.
    We don't see this as necessarily tied to the Federal 
Acquisitions Register or to our contracting in general. We 
don't have a rule that says this is something that we always 
have to do. But what we are certainly looking at is if there is 
a Radisson, if there is a Hilton, if there is somebody that has 
put their money where their mouth is as far as human 
trafficking, then we as consumers individually, but also G/TIP 
as an office, we should reward that type of behavior.
    So that is the plug. If you see a T.G.I. Fridays, that is 
Marilyn Carlson Nelson's company does that. We can't tell you 
where to eat, but you should know that they are doing their 
best to fight slavery.
    Mr. Smith. I appreciate that. Just one question before I 
yield to Mr. Payne.
    With regards to Cuba, a Tier III country which was granted 
a waiver on September 30 for cultural and educational 
exchanges, my question is how does granting that waiver 
actually promote democracy, rule of law, respect for human 
rights?
    And I would note parenthetically that I have tried, me 
personally, to get a visa to go to Cuba, primarily to go to the 
prisons and to try, if possible, to meet with the political 
prisoners there, to meet with Fidel Castro to raise directly--
or his brother Raul--the issue of human rights, and 
particularly the mistreatment, the torture, the degradation 
that is suffered by political prisoners in Cuba. And there are 
still hundreds of them. Some were recently let out including, 
Dr. Oscar Biscet, who I frankly nominated for the Nobel Peace 
Prize. He is an unbelievable man, a tremendous man. He is still 
under what we would call house arrest, but at least he is out 
of solitary and he is not being tortured per se. And I was 
denied.
    I tried to go with a cultural exchange group, because to 
get into Cuba you need to be going with some group. You just 
can't show up on your own. And I couldn't get a visa, still 
can't get a visa to go to Cuba. And yet a waiver was granted, 
and Frank Wolf joined me in that. He and I are trying still. We 
have been in prisons in China, the Soviet Union, Romania, East 
Bloc countries. I met with Xaxana Gusmao, when he was in--from 
East Timor, who then obviously went on to become President--in 
Indonesia. Yet we can't get into Cuba's prisons. And it is very 
troubling especially, since that is what is permitted or 
exempted in terms of sanctions. So a Member of Congress, 
chairman of the Human Rights Committee for Congress, can't get 
into Cuba, and yet that is waived. So if you could speak to 
that, I would appreciate it.
    Ambassador CdeBaca. Well, you are correct that it is 
waived. It is the only thing that is waived for Cuba. We feel 
that Cuba doesn't have a comprehensive strategy to address 
this. It has little if no discernible anti-trafficking law 
enforcement, victim care, trafficking prevention measures. You 
know, most other countries, even that end up being on Tier III, 
at least generally admit that there might be some trafficking 
going on. We feel as though, on the trafficking specifically, 
that just as we have been able to establish a dialogue with the 
Government of Cuba on migration issues, that we need to be in 
there trying to talk to them. Trying to talk to them can be 
frustrating. It can mean not getting a visa at times. We don't 
base our rankings of countries on whether Members of Congress, 
or even me or my staff, can get a visa to go talk to them.
    There have been other countries, other than Cuba, where we 
haven't had the luck of getting that visa issued as we would 
desire. But I think at the end of the day the calibration that 
this administration has on Cuba is very much that if we can get 
not only the formal dialogues with the government through--
especially on the migration dialogue, but also that notion of 
some people-to-people work, getting the Cuban people to be able 
to see what freedom looks like, to be able to see what that 
example does, it will achieve great change on the island.
    And so within the context of these particular sanctions, 
which are just some of many against the regime and doing 
business in Cuba, we felt that exempting out these cultural and 
educational exchange programs was a way to continue those types 
of relationships.
    As you said, even during the depths of the Cold War, that 
notion of educational exchange programs was one of the ways 
that we were able to (A) keep the dialogue going, but (B) raise 
up an entire generation of leaders who in the late 1980s and 
early 1990s finally were able to achieve change behind the Iron 
curtain. And we want to continue to be able to do that with 
Cuba.
    Mr. Smith. Okay. Mr. Payne.
    Mr. Payne. Thank you very much. I just wonder if any one of 
you would take on this question. Human trafficking is a broad 
term that encapsulates a diverse group of crimes from debt 
bondage to child sex trafficking. In your opinion--any one of 
you could try to answer this--what are the main push-and-pull 
factors driving international human trafficking? How do they 
differ in your opinion by region and by type of trafficking? 
And to what extent do current anti-trafficking programs address 
such underlying factors or vulnerabilities? Do you see a big 
difference as it relates around the world? Do you think there 
is any sort of a cartel that communicates with each other in 
different regions of the world? I just wonder if anyone might 
take that general question.
    Ambassador CdeBaca. I think I might tee it up. But I know 
that my colleagues have thoughts on this because we have talked 
about this over the last couple of years.
    We are talking about two regions of the world that are both 
source and destination regions. I sometimes--as I mentioned to 
Assistant Secretary Blake, I am going to see some of his 
clients when I am going to the Gulf States because there are so 
many people from South and Central Asia who are there who are 
vulnerable and often exploited. On the other hand, there are 
people within South Asia who are going from one country to 
another within South Asia or who are enslaved in their own 
countries. The same I think is true in East Asia where we have 
a lot of interregional trafficking that happens.
    At the end of the day, poverty is very much a driver of 
this but it is not necessarily the most abject of poverty. It 
perhaps is the one step up on the developed rung, the person 
who actually sees an opportunity to--having gone to school, now 
having no opportunity to get a job in their home village or 
their hometown says, Well, then I am going to have to go off 
somewhere else. All too often, the person who can help them do 
that is not an honest labor broker. It is somebody who is going 
to charge a usurious recruiting fee and enforce that through 
force, threats of force and threats of coercion.
    So one of the things that we very much look at is the idea 
that development could do something to stem the flow while 
recognizing that there is some research out there now that is 
showing that this is definitely a crime of opportunity. The 
victims want opportunity. They are willing to put themselves in 
harm's way to some degree. And the traffickers see the 
opportunity to take advantage of them.
    It manifests itself very differently in a number of these 
different countries, though. Even in different parts of the 
same country, you will have mainly sex trafficking in one part, 
and, in another part, mainly agricultural trafficking. Which is 
why I think that the work that we do at the embassies is so 
important. We have to apply these minimum standards to the 
regions and to the world, but we have to do it in the context 
of each one of these countries. The difference between a 
Senegal and a South Korea are very different based on where 
they are and what they need, and we have to be able to tell the 
difference as we are applying these minimum standards that you 
have given us.
    Ambassador Blake. Let me jump in and just add to what 
Ambassador CdeBaca said. I think in the SCA region, you see 
both a combination of push-and-pull factors, as you said, Mr. 
Payne. In places like India and Nepal, trafficking is often a 
function of poverty and poor education, where particularly 
young women, but also young children, are very vulnerable to 
seductive pitches from traffickers who promise a better life in 
the city and then find themselves enslaved once they get there, 
and in debt, bondage of some sort which they will never get out 
of. So they are very, very vulnerable to those kinds of 
pitches.
    It is also a function of weak governmental institutions and 
weak rule of law that is unable to deal with these kinds of 
challenges. Frequently you find trafficking in countries where 
there is a poor level or a low level of economic growth, in 
places like Tajikstan where one-seventh of the country is 
working outside of Tajikstan in Russia and in Kazakhstan 
because there is no economic opportunity for them. So those 
migrant workers are often very vulnerable in the countries in 
which they work, as Ambassador CdeBaca said, not just in the 
Gulf but in Russia and elsewhere.
    Another serious problem almost throughout my region is 
corruption where, again, those weak government institutions and 
often poorly paid officials are very susceptible to corruption, 
particularly by these organized criminal gangs and networks. 
And so that is a very difficult problem for us to try to deal 
with.
    So our challenge is to both try to shine a light on these 
practices, as I think this report does, but also work with the 
many capable NGOs on the ground who are doing terrific work, 
and then finally to engage the governments directly not only in 
terms of advocacy, but in terms of the many important programs 
that your committee helps to fund.
    Mr. Yun. Mr. Chairman, of course I agree with everything 
that has been said.
    But an interesting aspect in my view is, clearly it is tied 
to poverty and economy. Having said that, it is also clear that 
in some cases, country and countries can make enormous progress 
in very, very short time. And in my region, I would highlight 
South Korea and Taiwan. So you need to ask, why is it that some 
countries can make enormous progress in very short time? 
Obviously the strength of the institution is one. And I would 
say what I would loosely call ``freedom index'' is another one; 
that is, the media as a watchdog, civil society, and of course 
the willingness of lawmakers to look at their legislation, to 
look at their laws and see what they can learn from elsewhere 
and what will work for them. So it is entirely possible in my 
view that in many countries, things can improve quite rapidly, 
given opportunities.
    Mr. Payne. Thank you. Kind of a similar question in that 
vein, because I just wonder, how does the problem of--in your 
opinion--human trafficking compare to other social economic 
challenges facing governments that are not fully compliant with 
the U.S. minimum requirements? Do you find that when human 
trafficking is a problem, there are other similar problems?
    And secondly, where does a sort of state corruption come 
in? Officials in many instances, you have to work with 
policing. And I think policing around the world, even sometimes 
in our country, we see policing problems. Sometimes peaceful 
demonstrations are disrupted and they become actually a police 
riot.
    There is some question of just what happened in San Diego a 
night or so ago where people were relatively peaceful. A bottle 
or two might have been thrown. But the reaction of a police 
force here, even in our country--I just use that as an example 
that policing is so important.
    So the law enforcement agencies in countries where the 
social economic issues--in some instances these law enforcement 
people aren't even paid--not that that is an excuse for them to 
therefore be corrupt--but are low paid and poorly trained. How 
does that help them fit in?
    Ambassador CdeBaca. Again, I think I will let my colleagues 
discuss the particular ways that that manifests in these 
regions. But I think on the overarching, I think we learned 
that lesson in the United States prior to 1947. We may have 
forgotten it, frankly. One of the things that was the major 
civil rights achievement of the Roosevelt administration, 
working with the NAACP litigators and others, was to break the 
backs of the peonage and share-cropping system in the South, 
and that didn't happen until 1947, allowing the space then to 
move on from 13th Amendment jurisprudence to 14th and 15th 
Amendment civil rights, housing, voting, all of the things that 
we are familiar with from the 1950s and 1960s. But at the end 
of the day, it was the sheriffs and it was the local justices 
of the peace that were enforcing debt bondage in the American 
South for three generations after slavery was officially 
illegal. That is corruption at large, and it was systemic 
corruption. And we see some places where that type of 
corruption still exists.
    But then we also see the individual corruption of a police 
officer or their family who actually owns the brothels. It is 
not just that the cops are going to these brothels, as the kind 
of ``boys will be boys'' tolerance which we need to rout out, 
but then it is also that they are individually profiting. Or we 
see countries where, you know, the large landed interests don't 
want to clean up some of the problems with forestation or 
extractive industries because it is the senator's brothers or 
cousins or whoever that own those plantations.
    So we have to keep unpacking this corruption problem, 
because I think that the easy corruption problem is to say it 
is the fault of some low-level guy that is taking a bribe. We 
have to not only look at that level, you have to go up that 
other step, not blame the deputy, you have to go after the 
sheriffs themselves.
    Mr. Payne. That is excellent. Yes.
    Ambassador Blake. Mr. Payne, I would say to answer your 
first question, I think we do often see problems like 
trafficking in persons, drug trafficking and others, coexisting 
with each other. And again, they are a function of the fact 
that these organized criminal groups are often involved in 
these activities, find them very, very profitable.
    But I think corruption is also a very, very significant 
problem. And corruption often exists where you have, as I said, 
poorly paid officials, poorly developed institutions, but also 
it is a function of a lack of democracy in independent 
democratic institutions, like a free press, like free NGOs, 
such as Transparency International, that can bring to light 
some of these things without fear of retribution.
    It is a function of often lack of opposition parties in 
many of these countries who, again, have an interest in 
bringing these kinds of things to light. So there is a whole 
series of things. And often we try to see these in a holistic 
way as well and try to, again, not only address the problem 
itself but--in my mind the most critical thing that we can do 
in many of these countries is the work on rule of law because 
that underlies everything else. And if you have a strong, 
independent judiciary, you can get to the root of many of these 
problems quite quickly.
    Mr. Payne. Mr. Blake, I couldn't agree with you more. And I 
do. In listening to my colleague, I was fortunate enough to get 
in Cuba a number of years ago, and I thought it was my 
responsibility to raise issues with Mr. Castro. Fidel Castro at 
that time was the leader there. And I raised issues about, as a 
matter of fact, the inequity of the blacks in Cuba. Much of it, 
as I said, was because of remittances coming from the U.S. and 
other places, and the ones who left were not the blacks that 
were left behind. So there was a growing inequity among the 
races. There is very little we can do about that.
    But I also raised questions with some investors starting 
hotels. There started to become a prostitution question. It 
wasn't gigantic, but it was starting to raise its ugly head and 
raise a question that once again the poor people are going to 
be the ones--the minorities would end up in the position, by 
virtue of their lack of equality financially, and that there 
needs to be attention given to this, and this was not in the 
right direction, and even raised a question of prisoners.
    And as a matter of fact, another group went down after that 
and instructed them to not only raise questions but sort of 
talk to them about the fact that there should be--you need to 
reconsider people who are in prison that should not be there 
and who have not had a fair trial, which was raised by some 
Members, some people. And that seemed to have had some positive 
impact because we have seen--people shouldn't have been in 
prison in the first place. But there have been some released. 
So I feel that there needs to be a dialogue.
    I went to Bahrain a couple of weeks ago. And although there 
was only interest in, you know, me seeing the employment and 
things that were going on well, I wanted to meet the 25 medical 
people who were sentenced, and the government had all 25 of 
them, doctors and medical people who have been charged with a 
crime at a hospital which is just unheard of. There will be 
another trial. It is a military trial. I think the pressure is 
growing with how the Members pushed them to reconsider. So all 
the folks will be retried. So I think it is a step in the right 
direction.
    We have a committee of inquiry that we would hope that 
would come out. And they are not from that country, but from 
outside the country. But people still have not been put back to 
work. They were fired for protesting, and we said that this is 
wrong. Labor unions have been discriminated against.
    But I think that when you get an opportunity to go, we made 
it pretty clear that these--and they met with these different 
groups which are not on a regular program. But we insisted 
before we went, we had to meet with them not only so that we 
could make ourselves clear, but that these are things that have 
to be turned around and that we insist that this injustice in 
that kingdom end.
    So I guess my point is that I find some value of going and 
having conversations with some of the people that we don't 
necessarily--don't want to go to dinner with necessarily, but 
to try to convince them that policies need to be changed.
    Ambassador CdeBaca. Mr. Payne, if I could, I think that 
what we have seen is that if it is simply the trafficking 
ambassador that goes out and raises this and then, you know, 
comes back and works on the report, that those governments--the 
ones who are friendly and want to fight on this with us, they 
would have done that without a visit from me. The ones who are 
not interested in working on human trafficking without some 
cajoling--it is not just me going. When they hear it from Bob 
Blake, when they hear it from Joe Yun and Kurt Campbell, when 
they hear from you all when you are out on the road in the 
Codels or when your staff has been out.
    When I was on the Judiciary Committee staff, I was able to 
go to a shelter in Cambodia with Sheri Rickert from the Foreign 
Affairs Committee staff and some others, and being able to see 
the victim practices there, but also having to have the 
Cambodians know that Congress cared. It is a very different 
message than simply, you know, a guy from a small office in the 
State Department raising the issue of slavery in the modern 
era.
    So we join you in that notion that there is value and we 
want to support, whether it is Codels, staff dels, traveling 
with us will raise, I think, when we are out on the road, but 
knowing that you are raising it as well makes a big difference.
    Mr. Smith. Let me just ask a couple of final questions. 
First, I am sure all three of you saw the New York Times 
article, ``The other India: Where are the Children?'' on 
October 12, just a week ago. And it makes the very disturbing 
statement that between January 2008 and October 2010, 13,570 
children were missing in Delhi alone. It says, ``Some of the 
children who were eventually found spoke of being taken by 
force or of being enticed with promises of food and clothes. 
But they were then sold into various forms of slavery, 
including domestic labor, beggary, agricultural labor or 
commercial sex work.'' And the article also notes that ``A 
provisional Indian census report released in 2010 estimated 
that one in ten workers in India are children,'' and experts 
say that these numbers are conservative.
    I guess, Ambassador Blake, this might be directed to you, 
as well as to all three of you, really. The upgrading of India 
off the Watch List and not to Tier III but rather to Tier II--I 
listened very carefully, I read it very carefully in the 
report, but there is still I think some very disconcerting and 
unanswered questions.
    You say in your testimony, Ambassador CdeBaca, that sex 
trafficking of women and children has not abated and may, in 
fact, be increasing in places such as India. So it would 
appear, according to your testimony, that it is at least as bad 
and possibly getting worse.
    About 10 years ago, I had several hearings on trafficking, 
and we heard from the International Justice Mission, IJM. And 
the testimony was focused on India, and Gary Haugen actually 
brought a video and showed all of these young--some of them 
were not even teenagers, they were so young--little girls that 
were in a cellar who, when the police came--and the traffickers 
were tipped off by the police, they went through some charade. 
Afterwards the little girls were brought out of the hiding 
place. Their eyes were all squinted because it was dark. And 
you could see that these were tiny, little, at-risk little 
girls who were being trafficked. And one of the things that 
Gary Haugen made very clear in his testimony was, a point made 
clearly was, it is the police.
    And I have noticed, you know, if we are going to have a 
problem anywhere, it is not often the President, the Prime 
Minister. It is that point of contact at the police level, 
which obviously is part of government, and therefore is subject 
to the minimum standards.
    This report, other reports that I have read on India, point 
out that law enforcement still may be lax, still may be the 
Achilles' heel in India. I was actually in Nigeria, in Abuja, 
in a hotel after a full day of working on trafficking, when I 
turned on CNN and there was a very, very fine report on CNN 
International about India. And again, the police were tipped 
off. They went through the charade of walking into the brothel 
and the kids, some of them didn't get out quick enough, ran out 
to the street. And he said, by the next day, they were all back 
being sold and exploited, and the police were laughing about 
it.
    And I am wondering if that is still a problem, especially 
since, as you pointed out, Ambassador CdeBaca, that sex 
trafficking of women and children may not have abated and may, 
in fact, be increasing in places such as India. Are we just 
holding our breath with some hope here that India will get its 
act together?
    And I add into that the similar problem, but not apparently 
government-sponsored, but like China where the one-child-per-
couple policy is a major push toward the elimination of the 
girl child. But we had a press conference--again, right in this 
room very recently--and it was focused on India and China, and 
the bias against and prejudice against the birth of and the 
lives of little girls. And again, most of the girls are 
eliminated, destroyed by sex selection abortions. But many 
others, particularly in India, are killed. As they are born, 
their gender is discovered, and they are suffocated or killed 
in some other way.
    Again, one of our people at that press conference said the 
most dangerous three words in that part of the world is ``It's 
a girl.'' If it is a girl, she may be dead. Or if she gets to 
be a little bit older, she may be exploited through 
trafficking.
    And again, with deep respect to Ambassador Blake and to all 
of you, I would hope that unless there is--my hope is next time 
around, India, if they have not made truly significant 
progress--you know, when you say there are 80 units, 
trafficking units, that is one out of every 14 million people. 
Is that just something that has been put together to appease a 
local political constituency or an international one? Or is 
this an all-out effort to eradicate slavery? Because as 
Ambassador CdeBaca said, it has not abated, and it may even be 
getting worse.
    Ambassador Blake. Mr. Chairman, that is a big question 
about a big country. So let me try to tackle it, and then I 
will ask Luis to chime in. First of all, let me just say that I 
personally have been working on this issue about trafficking 
persons in India for the last 8 years. I started out as deputy 
chief of mission in 2003 and spent 3 years there. One of my 
most important tasks then as deputy chief of missions was the 
work on trafficking missions. I led our working group inside 
the Embassy working on this, because I felt it was such an 
important priority. And you are right, I remember going to 
train stations and seeing traffickers waiting for young kids to 
get off the trains from rural areas, because they were so poor 
and so desperate, and these guys were predators waiting to 
basically bring them into slavery.
    And I was there with really dedicated NGOs who were there 
to stop those guys and had, in fact, found partners in the 
police to help them stop that. So even at that time, there were 
some quite good efforts that we were supporting to stop those 
kinds of practices.
    At that time, too, Mr. Chairman, I think India often even 
refused to admit these kinds of things even existed, and 
certainly didn't want to acknowledge the scope and the scale of 
the problem. I think we have come a long way since then, Mr. 
Chairman, with due respect.
    This year India was upgraded because they are making some 
pretty significant efforts. I mentioned the 80 anti-human 
trafficking units. What is significant about that is that now, 
those are under the authority of the very powerful Ministry of 
Home Affairs, which is their chief law enforcement branch that 
is responsible for this. And the Minister himself has taken 
direct responsibility for this issue which is very significant. 
Before, it was the Ministry of Women and Child Affairs and 
things like this; but the Ministry of Home Affairs was not 
involved. So this, I think is quite significant.
    Secondly, they say they have ratified the protocol. And 
most importantly, as you said, Mr. Chairman, it is working with 
the police and it is working with the courts, because that is 
where the real action is going to be to stop these guys who are 
engaged in the trafficking itself.
    And in the past, India often used to arrest the victims. 
They would go into a brothel, and they would arrest all the 
girls and the people who had been trafficked, not the people 
who were behind it. And, again, I think that is really changing 
now.
    I can just give you a few examples, if I could. We have 
been working a lot in Mumbai. Mumbai is a real center for the 
trafficking industry. And people come from as far away as 
Bangladesh and Nepal and are trafficked into Mumbai. There is a 
judge there by the name of Judge Swati Chauhan who has really 
done some terrific, terrific work. Literally, her court has 
taken over and cleared hundreds of sex trafficking cases and 
issued rehabilitation orders for roughly 1,200 rescued women. 
And what is important about this is that the Ministry of Home 
Affairs has not only taken note of her efforts but has said, we 
need--that they need to publicize those efforts and duplicate 
those efforts all over India. So they are actually organizing 
very soon a seminar of all these nodal units all around India 
to come and hear about how she has done this and how she has 
tackled this. And I think they are going to try to resource 
this in an appropriate way.
    They are also going to expand these anti-human trafficking 
units. They have got 80 of them now, but I think they have 
intentions over time to establish them in all 600 districts of 
India, which is a big deal.
    I want to say at the state level, there is a huge disparity 
in India between some states that are doing very well and then 
others aren't doing so well. And I think in a lot of the states 
now where you do see quite significant trafficking like West 
Bengal, like Maharastra which I mentioned, Karnatica, the 
police are actively working not only on the sex trafficking 
side but increasingly on the bonded labor side. And as Luis 
will remember, back in 2003 to 2006, this wasn't even on their 
radar. And now not only are they dealing with it, but they are 
dealing on the law enforcement side and bringing these into the 
court systems and prosecuting people.
    Mr. Smith. Does that also include police who are complicit? 
Were there any instances where the police were prosecuted?
    Ambassador Blake. You know, I can't tell you for sure.
    Mr. Smith. If you could check that.
    Ambassador Blake. That is a very good question.
    But the point I want to make is, do the problems still 
exist? Of course they do. But I think what is really different 
now is that there is a political will on the part not only of 
the Federal Government but State government and, most 
importantly, the law enforcement.
    And to get back to Mr. Payne's question, I talked about the 
rule of law. And what India does have going for it is an 
independent rule of law, particularly a very strong Supreme 
Court. I think that is the backbone of a lot of what happens in 
India. And for that reason, you do have very strong NGOs, you 
have very strong opposition parties, all of whom are more than 
happy to highlight these problems and try to get them 
addressed.
    So there are still a lot of problems to be dealt with, but 
I do believe that India is making progress in the right 
direction.
    Mr. Smith. I appreciate it. Mr. Ambassador.
    Ambassador CdeBaca. I would second that. I think that one 
of the things that was notable over the last couple of years 
that we have seen from the Supreme Court is that it has begun 
to do these inquiries into the different aspects of the anti-
trafficking fight, not just on the sex trafficking or the sex 
trafficking of children, but looking at things as diverse as 
these circus performers who are being enslaved.
    We had a briefing from the Polaris Project the other day 
about the HHS-funded hotline that they run here in the United 
States. One of the trends that they saw was that they have 
gotten I think 29 or 30 calls from people who are in carnivals 
here in the United States who were trying to get help because 
they had been harmed or trapped or stuff. And the Civil Rights 
Division actually prosecuted cases of that ilk back in the 
1970s. To suddenly see that the Supreme Court of India was 
having hearings on the exploitation of these people and these 
transient or itinerant circuses, I think it shows that there is 
kind of a level of sophistication that is coming into some of 
these institutions in India that we, frankly, had not seen 6 or 
8 years ago. Obviously we do have a very large problem of human 
trafficking in India. No one--the Indians or the Americans or 
anybody else who looks at it--would say otherwise.
    I think that one of the concerns that we have--and we have 
mentioned this in my report last year--as far as the changing 
nature of sex trafficking in India--as you mentioned, that is 
in our testimony--is this notion that there seems to be a move 
from the red-light districts to roadside prostitution, small 
hotels and private apartments. That is problematic for a whole 
host of reasons, in no small part because of the law 
enforcement challenge. As law enforcement becomes more serious 
about doing these cases, the law enforcement challenge goes up 
very steeply when you don't have access to the people who you 
are trying to save, the people you are trying to rescue. So we 
we are looking at this. We are going to be continuing to be 
raising that with our Indian counterparts.
    But there are definitely things happening in India that I 
think anyone looking at India, circa 2002-2003, it would be 
mind-boggling to think that they are actually liberating people 
from brick kilns, putting bonded labor bosses in jail. We need 
to take that now, work in partnership with Indians as the two 
largest common law--not just large democracies but common law--
countries and really take it to the next level.
    Driving it out to the states is as important in India as it 
is here in the United States. That is where law enforcement 
gets done, and we want to work with our counterparts there to 
make sure that that happens.
    Mr. Smith. I appreciate it. I have two final questions. And 
thank you for that explanation.
    The first is with regards to Vietnam. And Ambassador 
CdeBaca, we have talked about that many times, and I have 
raised it, as have others, many times at hearings. The labor 
trafficking issue, your view as to whether or not there really 
is progress being made, especially since so many of the 
allegations are against companies that are really state-run 
companies. The Daewoosa case, still no payment as far as I know 
of the $3.5 million. And I know you were involved with that 
prosecution, the very first one, pursuant to the TVPA.
    And then a second question, if you could maybe speak to a 
good news issue and that would be, you know, Nigeria is now a 
Tier I country. I have visited there. I mentioned that a moment 
ago. I met with their TIP leaders and went to Lagos where 
trafficking obviously was a problem. Many of those women, young 
girls, were trafficked right into Europe, into Italy.
    I will just tell a very, very quick story about a woman 
named Elizabeth that I met in Rome who actually became pregnant 
as a direct result of being trafficked and abused sexually. And 
she made a statement I will never forget. This little 3-year-
old was running around at the shelter in Rome and she had been 
trafficked for about 5 years, a terrible ordeal. I hope she 
writes a book someday because it is a testimony to faith and 
courage. But this young Nigerian woman said, ``The child saved 
my life.'' And said, ``If it wasn't for this child, I probably 
would have been a statistic''; you know, suicide or something 
along those lines. You don't hear that kind of heroic love for 
a child all that often, at least explained like that. But she 
told how she went through the route out of Nigeria into Italy.
    So the question is, Nigeria, they are Tier I. It is a good 
news story, I think. They certainly have tried very hard. And 
maybe you want to elaborate on that for the record, as well as 
the Vietnam question.
    Ambassador CdeBaca. Well, I will take the Vietnam, then. I 
think that Mr. Yun can set the scene for us on Vietnam.
    Nigeria is an interesting case because, of course, Nigeria 
is not necessarily thought of on many law enforcement issues as 
being on the cutting edge. It is not a country--unlike what we 
have been testifying to today as far as transparency indices or 
corruption indices or things--that always comes out on top. And 
yet we have seen some very innovative anti-trafficking efforts 
there that, as you say, when we looked at, over the last 2 
years, the application of the facts and the minimum standards, 
has come out as a Tier I.
    You know, we don't go into these with a predetermined tier 
ranking. We put the facts into the logs, like we have a big 
machine, they all go together, and we turn the crank. And 
suddenly a Nigeria comes out the other side with a Tier I label 
on it. And I think it surprised a lot of people, frankly. Maybe 
it even surprised the Nigerians themselves. But at the end of 
the day, what they did was very innovative. Taking police, 
prosecutors, and social workers and putting them in the same--
not just chain of command but putting them in the same office, 
assigning them to cases simultaneously so that they knew that 
they were going to be working together throughout, that is very 
different than what most countries do.
    Here in the United States, we have prosecutors assigned to 
cases early on, and we have victim witness coordinators in most 
of our law enforcement entities. But you know, there are very 
few prosecutors that are older than me that came up in that 
system. And thank God, as I age, most of the prosecutors 
younger than me don't even know that there was a time when 
there wasn't a victim witness coordinator in that prosecutor's 
office fighting for the rights of the victim.
    Nigeria seems to have taken that ethos and taken it to a 
new level. And I think that that was perhaps one of the reasons 
why we saw at the ASEAN prosecutors conference in Singapore 
this summer that the cutting-edge prosecutors that were invited 
to share their best practices with their ASEAN counterparts--
ASEAN looks to a couple of places that maybe people wouldn't be 
surprised about, Sweden and the United States, but then they 
also looked to Nigeria. So to the degree that we are seeing 
African leadership that can be tapped into around the globe, I 
think is a very, very positive thing for this fight against 
human trafficking.
    Now each year we are going to look at Nigeria. We don't--
Tier I is a responsibility, not a reprieve. And we hope that 
Nigeria will continue to sharpen and continue to improve 
because, like India, it is a country that has a big trafficking 
problem. And even when they are doing well or they are doing a 
good job of having these structures, they are having good 
results, there is still a big, big trafficking problem with 
Nigerians; as we saw in some of the Tunisian refugee camps and 
Libya and other places, pimps who suddenly were in the camps 
with the women that they had been trying to get across into 
Europe. So this is a problem and it continues to be one.
    But seeing the ASEAN region prosecutors react to their 
Nigerian counterparts and seeing African leadership that way, 
to me showed that we really are, after this decade of 
development, we are on the precipice, I think, of some real 
change here.
    Mr. Yun. Thank you. Vietnam is a case we have expended a 
great deal of efforts. Secretary Clinton was there twice over 
the past 18 months, and I was with her on both occasions. And 
in both meetings, the items that featured very prominently were 
human rights and trafficking there, of course challenged on 
both accounts, as well as freedom of religion. That remains an 
issue.
    Vietnam is designated as Tier II Watch List. But I do 
believe they are undergoing changes both in the government and 
in society where we are seeing signs, some concrete signs that 
they are making some progress. Number one is that they now do 
have a law, anti-trafficking law. And the question remains, how 
is it going to be implemented? The law was only passed I think 
maybe about 9 months ago. So we are keeping a very close eye on 
that. And also there had been a number of criminal prosecutions 
and convictions of sex traffickers. So we are encouraged by 
that.
    As you mentioned, labor trafficking remains an issue. And 
again, we are somewhat happy that they now have a predeparture 
training for overseas workers. So it is changing, and we do 
hope it will change more rapidly, and we are expending a great 
deal of bilateral efforts.
    In fact, in about 2 weeks, we are going to hold an annual 
human rights dialogue. On our side, it will be led by Assistant 
Secretary Posner, and the Vietnamese will be here this year. So 
next year we will go over there. So these dialogues and high-
level meetings have helped, but I understand your concerns.
    Mr. Smith. I appreciate that.
    Just before I yield to Mr. Payne, earlier today, Secretary 
of State Hillary Clinton testified before the full Foreign 
Affairs Committee. And while it was focused on Afghanistan and 
Pakistan--and my and everyone else's questions were primarily 
focused on that--I did ask her if she would pick up the phone 
and call the Foreign Minister of China to inquire as to whether 
or not Chen Guangcheng is dead or alive, or perhaps even dying. 
There have been rumors, reports--we don't know if they are 
true--he has been beaten savagely by the Chinese police, first 
in prison and then under house arrest. And his crime, as we all 
know, is that he pushed human rights. He is the blind activist 
lawyer, and actually raised the case of forced abortion in 
Linyi and took the women's side. And for that, he was singled 
out for excessive brutality. Again, knowing that that issue of 
human rights abuse leads directly into our reason for being 
here this afternoon, human trafficking, it exacerbates it 
significantly.
    If you could take that back. She didn't answer the 
question. We pretty much ran out of time. We didn't go back to 
it later. But I think a phone call--I will be convening an 
emergency hearing of the China Commission next week, and I hope 
Ambassador Campbell can make it, as one of the members of the 
executive branch who is on that. I am chairman of that 
Commission. And it will be an emergency meeting focused on Chen 
and his wife. Where are they? And whether or not they are dead 
or alive, and what we are doing and what the West is doing, 
what any country that cares about human rights is doing, vis-a-
vis Beijing, to raise his case because we think he may actually 
be dead or bleeding as we meet. Please take that back.
    Mr. Payne.
    Mr. Payne. Just a quick question or two more. The chairman 
raised Nigeria. And I was just going to--when I said I have a 
couple of other questions, I didn't know he was going to raise 
that. But I wanted to know what anyone--maybe you, Ambassador 
CdeBaca, might tell us. What African countries have made the 
most progress outside of Nigeria in confronting human 
trafficking? And are there any best practices that can be 
replicated?
    And the other part of the question is that there are 
regional groups, as you know, in Africa; SADC in the South and 
IGAD in the East and ECOWAS in the West. Did you find it an 
advantage, the AU, African Union, to work with the regional 
groups to sort of find best practices, if there were some that 
could then be introduced to them?
    Ambassador CdeBaca. Well, exempting Nigeria from the 
question is a little tougher because that is such an innovative 
practice.
    Let me say one last thing about Nigeria because there was 
something that was done that the Netherlands and Nigeria 
cooperated on, and that was bringing up some traditional 
healers so that the victims in a case in the Netherlands would 
be able to, in effect, have a counter put on to the Juju that 
had then been put on them before they left home, which was as 
powerful a form of coercion to them, based on their religious 
and cultural practices, as were the threats of force and the 
beatings that they were undergoing at the hands of their 
traffickers. And that notion of that innovation of bringing in 
a traditional healer in order to have a counterceremony for 
those women was, I think, very forward-thinking. And it is the 
kind of thing that you only get if you have those relationships 
between the governments on these issues.
    We have certainly seen on the part of Mauritius, a meeting 
the minimum standards. But as far as the tiers are concerned, 
that is really what we see in the Africa region. We would like 
to see more on the mainland itself.
    There is some, I think, hunger on the part of a number of 
governments to work on this. We have seen, whether it is in 
Malawi or in Benin, programs that are out there working with 
especially the child victims. Much of the victim response in 
Africa has been on child victims, and we want to encourage that 
to continue but then also make sure that our African partners 
recognize male victims and female victims who are adults, not 
just the children.
    Perhaps some of that is because of some of the good work we 
have seen from UNICEF in the area. It is so dominant, then, 
that a lot of countries respond on child issues first.
    A success story of sorts is the rapid movement that we have 
seen in Swaziland over the last 2 years. Swaziland, Tier III on 
the report in 2009; since then, having raised up to Tier II. 
Maybe because they were so late coming to the game, and they 
came in as a Tier III country that denied there was 
trafficking, didn't want to do anything on it, et cetera, when 
the wake-up call happened, they put together an inter-
ministerial working group that had NGOs on the working group. 
We don't even have that in the United States. So when they meet 
under the auspices of the Prime Minister himself, when they 
meet, the NGOs and the folks from the government are together 
in the room. What we have seen is that it has got a level of 
respect for each other that has been slow coming in many other 
African countries. The NGOs feel like they can get a fair shake 
from their government counterparts and the government 
counterparts don't just look at the NGOs as potential rivals 
for power or someone who could be a problem for them. And that 
is something, again, that we would like to see.
    Swaziland, obviously, has a very specific governing 
structure. And in other countries that don't have a monarchy, 
that have different types of governments, perhaps that couldn't 
happen quite as quickly. But we have seen that as a real 
positive.
    I think that at the end of the day, what we have really 
seen is it is that notion of political will. In Senegal, when 
the government started focusing on child begging, and realizing 
that the Koranic teachers were not a religious institution but 
were cowards hiding behind the Koran as a way to lure the 
children in so that they could do their begging all of the 
time, taking advantage not only of the trust that the parents 
had of these supposed religious figures, but also taking 
advantage of the admonishment that the Koran has as far as 
alms-giving and as far as the support that should be had for 
such schools, perverting that in a way that is right out of 
Dickens. These child begging rings have been plaguing that part 
of Africa for quite a while.
    And to start to see the governments in that part of Africa 
recognize that it is not cultural, it is not just something 
that is always going to happen, but it is criminals who are 
taking advantage of children; I think that is a best practice 
in and of itself, the recognition and then the political will 
to do something about it.
    It is not just an African thing. We have seen this in the 
U.K. just in recent months, the liberation of Eastern European 
children from begging rings. Obviously we see this in New Delhi 
and in any major city, I think, in the region; and we see it 
here in the United States. So this notion of the beggars is 
something that we all share. But I think in Africa, the 
countries rising up against it, as we are starting to see 
happening, that is a great thing to see.
    Mr. Payne. That is great.
    Just, finally, we had a hearing with our committee, and 
there was a young man who was blind. He was a slave, a Dinka 
from South Sudan. And we know that that has been a problem of 
Dinka children and Nuba childr0en, especially during the 
conflicts. It was encouraged by the government of the North. 
And I wonder if some of the conflicts where abduction is still 
happening, and of course people are brought into indentured 
servitude, have you seen that start to eliminate itself? Could 
you give a short statement on that?
    Ambassador CdeBaca. Well, sadly, the conflict, because it 
is the enemy of rule of law, it creates the ultimate zone 
impunity where the traffickers operate. Conflict does seem to 
be followed very closely by this, especially in Africa. And 
unfortunately, it is not only the slavery that comes in its 
wake, whether it is the villages being emptied out for the men 
to work as porters as the army moves around, for the women to 
cook, clean, and be used as, frankly, sex slaves, but also for 
the children to work in artisanal mines, whether it is gold or 
the rare minerals that we use in our cell phones and other 
things. But also that notion of conscripting, flat-out 
stealing, frankly, combatants. And so this notion of the child 
soldiers being, in effect, both victim and perpetrator at the 
same time, I think, is one of the tragedies of the region.
    What we have seen is that a number of countries have taken 
steps. With the good work of UNICEF and the work that we have 
been doing and others, we have seen a difference in Chad, for 
instance, as far as the demobilization of child soldiers. What 
we would like to see more in countries around the world is not 
simply demobilization and giving some type of safety to the 
child soldiers who you capture from the people that are 
fighting against you, but then also countries looking at their 
own troops and making sure that they are scrubbing them 
accordingly.
    So while the trend seems to be improving a bit, we need to 
keep our eye on the ball as far as the child soldier issues. 
And while my office is not the lead on child soldiers in the 
State Department--that is the Bureau of Democracy Rights and 
Labor--we certainly look at it each year in the trafficking 
report because we know that slavery--whether it is the women 
that were held as sex slaves during the Balkan conflict in 
Europe, whether it is the folks who are currently held in 
Africa or in other parts of the world, this follows conflict 
wherever it goes.
    Mr. Payne. Thank you very much. I yield back.
    Mr. Smith. I will follow up in terms of things looking 
into. On July 22, I chaired a hearing of the Helsinki 
Commission on the egregious practice in Egypt of abducting, 
kidnapping young Coptic Christian girls, apparently by the 
thousands each year, who are then held and forced into Islam 
and then given at age 18 to a man, and now they are Islamic. 
The women who testified, we had several, three people 
testified--was Michele Clark, who both, Ambassador CdeBaca, you 
and I know very well as number two for trafficking at the 
Organization for Security and Cooperation in Europe, very 
reputable. She is a professor at George Washington University. 
And she said it is not a matter of allegations anymore. She has 
actually done the reporting herself and will be doing more 
reporting on this. But it seems to be a human rights and, I 
would say, a trafficking issue, certainly something that rises 
to the level of needing to be combated very aggressively.
    And I am wondering if it is something you have looked into. 
We gave the information to our new Ambassador before she was 
deployed to Cairo, and the hope is that she will really raise 
it. But I can't imagine what it must be like for a parent, 
especially for the young girl--but for a parent and her entire 
family to have first the child abducted and then put into a 
situation of bondage, if you will, and then perhaps abused in 
numerous ways, and at the appropriate age, age 18, given as 
some kind of gift by shadow slavery to someone as a wife. And 
again, Michele Clark has true credentials in the human 
trafficking area. And she says we are missing it. So if you 
could speak to that, number one.
    And secondly, Uzbekistan, again, putting on my Helsinki 
hat. Every year, the cotton crop is picked by large numbers of 
young children who are brought out of school, and it is child 
labor at its worst. And yet for 4 years, Uzbekistan has been on 
the Tier II Watch List. It seems to me they should have dropped 
to Tier III. Your views.
    Ambassador CdeBaca. I think I will do Egypt, and then we 
can go to the northeast with Assistant Secretary Blake who is 
fresh off the plane from Uzbekistan.
    Mr. Smith, we will definitely look into the new allegations 
that you mention. We certainly looked through the earlier 
report that CSI did that I think that Professor Clark had been 
involved with. It sounds like there may be some new 
information, and we would very much like to look at that. This 
is an area that we like to look at.
    We also, of course, look at Muslim girls being sold for 
marriage and other things, whether it is through the temporary 
marriages to--what basically can only be described as sex 
stores.
    Mr. Smith. But as Michele Clark said--let me interrupt you 
briefly--from certain jaundiced view on the part of some, they 
get two things out of it. They get a wife who then they give 
out like she is some kind of property or commodity. And 
secondly, they Islamasize--and to me, that is--you know, if 
somebody decides to be Muslim, Christian, whatever their faith 
may be, and that is what freedom of conscience is all about, 
but to do it through coercion is a horrific human rights abuse. 
I am sorry to interrupt.
    Ambassador CdeBaca. No. I was just saying that we would 
very much look forward to seeing the results of any new 
reporting, any new evidence. It is something that we take 
seriously. And we also continue to take seriously the promises 
of the new government in Egypt that has assured us that they 
will enforce and continue to implement the national plan of 
action for combating trafficking of persons which was announced 
in December of last year, which was just a few weeks before the 
events of the Arab Spring happened.
    Despite the fact that there has been a lot of leadership by 
then-First Lady Suzanne Mubarak on getting that national plan 
of action in place and equally, obviously, the Mubarak family 
is no longer in the position that they were, we have heard from 
the current government that this is something that they want to 
continue because they realize that this protects Egyptians, 
whether Egyptian children or Egyptian adults.
    So as we continue to work with them on how they are going 
to implement that action plan, how they are going to bring it 
to life? We will want to make sure that all of these 
allegations about forced marriage, whether of Muslim or 
Christians, are addressed. And we will continue to look at 
this. And like I said, we would be happy to look at whatever 
new evidence that Michele or others might have.
    Mr. Smith. I appreciate that.
    Ambassador Blake. On Uzbekistan, Mr. Chairman, again, this 
is another country I worked hard on. And to answer your 
question, you know, we granted a waiver and kept Uzbekistan on 
the Watch List this year, because in March of this year they 
decided to create an interagency working group that was tasked 
with ensuring compliance with all 13 of the ILO conventions to 
which Uzbekistan is a party. That working group in turn has 
created an action plan to, again, ensure compliance.
    This year, the government permitted UNICEF to assess child 
labor in all 12 regions of Uzbekistan. And, you know, just as 
importantly I think, Uzbek officials tell us now that they are 
making a real effort for the first time to try to end the use 
of children under the age of 16 in the harvest, and to actually 
punish those who are violating the law. So the harvest is 
ongoing right now, Mr. Chairman, as you probably know. But from 
initial reports that we have received from independent sources 
and from our own Embassy, they tell us that in fact there has 
been a reduced incidence this year of forced child labor in 
Uzbekistan, and fewer schools have been closed as a result of 
that. But the forced adult labor continues, and in fact may 
even be increasing to compensate for the child labor part of 
it.
    So, you know, obviously we are going to have to withhold 
judgment until the end of the season and see how it goes. But, 
you know, I think we have the government's attention. And you 
know, they are now committed to this, where they have an action 
plan, they have submitted something on paper.
    And, you know, this year we are going to seek, I would say, 
three things: First, we are going to try to seek action to end 
the use of forced adult and child labor, full stop.
    Secondly, we are going to try to urge them to investigate 
and prosecute officials who are suspected of being complicit in 
trafficking. Again, I think there is no stronger signal than 
putting people like that in jail. And that is going to serve as 
a powerful deterrent to others.
    And then, third, we want to focus on trying to encourage 
them to allow forced labor experts, particularly the ILO in 
there. UNICEF is doing these assessments now, but it is really 
not their job. And they themselves are the first to say that 
they encourage the government to do this. So we are going to be 
working both with the ILO and with the government to try to 
bring them together and achieve not only implementation of 
these conventions, but also ILO presence on the ground to kind 
of verify that.
    Mr. Smith. I appreciate that. Thank you. Is there 
anything--and I appreciate your work. You don't look jet-lagged 
at all. Is there anything else any of you would like to add 
before we conclude the hearing? Any country you would like to 
highlight that perhaps Mr. Payne, Mr. Turner, and I have not 
brought up?
    Well, I want to thank you so much. We will have some 
written questions.
    I won't keep you any longer. And I do very much appreciate 
your work. We all do. The subcommittee respects the hard work 
that you expend every day on behalf of the victims. So thank 
you so very much. The hearing is adjourned.
    [Whereupon, at 4:07 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
